Audit of the Management of
Leased Office Space




Smithsonian Needs to
Finalize Its Cost-Benefit
Analysis to Inform Real
Estate Decisions




Office of the Inspector General
Report Number A-13-12
July 3, 2014
          Smithsonian Institution
          Office of the Inspector General


In Brief                         Smithsonian Needs to Finalize Its Cost-Benefit
                                 Analysis to Inform Real Estate Decisions
                                 Report Number A-13-12, July 3, 2014

Why We Did This Audit             What We Found

The Smithsonian houses            We found that the Smithsonian has developed and
its staff in buildings that it    implemented short- and long-term plans to reduce leased
either owns or leases.            office space, as well as long-term plans to synchronize the
                                  expiration dates of Washington, D.C. area office leases in
The objectives of this audit      anticipation of purchasing office space in 2021. Management
were to evaluate the              has employed some effective strategies for identifying
Smithsonian’s short- and          opportunities to reduce its leased space costs. By monitoring
long-term plans for               Smithsonian’s use of leased office spaces, the Division
managing its leased office        successfully consolidated some spaces to reduce costs where
portfolio, and also to            possible. However, management had not finalized a cost-
assess management’s               benefit analysis to support its plans to purchase a building.
strategies for identifying
opportunities to reduce
costs relating to leased          What We Recommended
office space.
                                  To present a more informed position to stakeholders regarding
Background                        the purchase or lease of office space, we recommended that
                                  management: continue to refine and complete a cost-benefit
The Smithsonian has 15            analysis for use in the decision making process and include this
office leases in 5 locations,     analysis in the Smithsonian’s federal budget proposal.
totaling 642,705 square
feet, with an annual lease        Management concurred with our finding and recommendation
cost of approximately $29         and plans to complete its cost-benefit analysis by or before
million.                          September 30, 2015. We will continue to monitor
                                  management’s progress towards completion of this
The Smithsonian, like             recommendation.
other federal entities,
continues to lease rather
than purchase office
space, partly due to the
Office of Management and
Budget’s (OMB) budget
scoring procedures. These
procedures, set forth in
OMB Circular A-11, appear
to favor leasing instead of
purchasing because many
entities fail to develop a
cost benefit analysis.


                                   For additional information or a copy of the full report, contact the
                                   Office of the Inspector General at (202) 633-7050 or visit
                                   http://www.si.edu/oig.
          Smithsonian Institution

          Office of the Inspector General


  Date    July 3, 2014

    To    Walter Ennaco, Acting Director, Office of Planning Design and Construction,
          Debra Nauta-Rodriguez, Deputy Director, Office of Planning, Design and
            Construction
          Edward Rynne, Associate Director, Real Estate Division

     cc   Albert Horvath, Under Secretary for Finance and Administration/
            Chief Financial Officer
          John Lapiana, Deputy Under Secretary for Finance and Administration
          Nancy Bechtol, Director, Office of Facilities Engineering and Operations
          Porter N. Wilkinson, Chief of Staff, Board of Regents
          Patricia Bartlett, Chief of Staff, Office of the Secretary
          Judith Leonard, General Counsel
          James Douglas, Director, Office of Human Resources
          David Voyles, Director, Office of Planning Management and Budget
          Cindy Zarate, Executive Officer, Office of the Under Secretary for Finance
            and Administration/Chief Financial Officer
          Stone Kelly, Program and Budget Analyst, Office of Planning,
            Management and Budget

 From     Epin Christensen, Acting Inspector General    ~~
Subject   Audit Report on the Management of Leased Office Space, A-13-12

          Attached please find a copy of our final report titled Smithsonian Needs to
          Finalize Its Cost-Benefit Analysis to Inform Real Estate Decisions.

          We made one recommendation to improve the management of leased office
          space. Specifically, we recommended that management continue to refine
          and complete a cost-benefit analysis for use in the decision making process
          and include this analysis in the Smithsonian's federal budget proposal.

          We appreciate the courtesy and cooperation of all Smithsonian staff during
          this review.

          Please call me or Joan Mockeridge, Acting Assistant Inspector General for
          Audits, at 202.633. 7050 if you have any questions.




          MRC524
          PO Box37012
          Washington DC 20013-0712
          202.633.7050 Telephone
          202.633-7079 Fax
SMITHSONIAN INSTITUTION                                 OFFICE OF THE INSPECTOR GENERAL



                                    INTRODUCTION

The Smithsonian houses its staff in buildings that it either owns or leases. The
Smithsonian has 15 office leases in 5 locations, totaling 642,705 square feet, with
an annual lease cost of approximately $29 million:

                  Square Feet                       Locations
                    397,673                 Washington D.C.
                    159,131                 Cambridge, Massachusetts
                     51,481                 Arlington, Virginia
                     23,406                 New York City, New York
                     11,014                 Herndon, Virginia
                    642,705


The objectives of this audit were to evaluate the Smithsonian’s short- and long-
term plans for managing its leased office portfolio, and also to assess
management’s strategies for identifying opportunities to reduce costs relating to
leased office space.

A detailed description of our objectives, scope, and methodology is included in
Appendix A.

Management concurred with our finding and recommendation and has
planned corrective actions to address the recommendation. Please refer to
Appendix B for management’s complete response.

                                     BACKGROUND

The Smithsonian, like other federal entities, continues to lease rather than purchase
office space, partly due to the Office of Management and Budget’s (OMB) budget
scoring procedures. These procedures, set forth in OMB Circular A-11, appear to
favor leasing instead of purchasing because many entities fail to develop a cost
benefit analysis. Without this analysis, OMB scoring procedures for operating
leases1 compares the cost of one year’s lease payment to the entire purchase price
of a building in the year of purchase. Therefore, when applying OPM scoring
procedures, inevitably a one-year lease payment will appear less costly than the
entire purchase price of a building.




1
   An operating lease is a contract that allows the use of an asset, but does not convey
rights of ownership of the asset. Lessees account for operating leases as a rental expense
and do not classify them as an asset on their financial statements.

                                                                                July 3, 2014
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL



Smithsonian Directive (SD) 416, Real Estate Asset Management, states that the
Office of Facilities Engineering and Operations (OFEO) is responsible for the
accounting, reviewing, acquiring, and disposing of real property. The Real Estate
Division (Division), an office within OFEO, is responsible for managing office leases

in accordance with The Real Estate Manual, a guide for implementing SD 416. This
manual provides procedures, technical guidance, and information on how the
Smithsonian acquires, disposes of, and manages real estate.

According to the Smithsonian’s Real Estate Manual:

      The Division provides real estate expertise, oversight, technical consultation,
      counsel, and coordination with all Smithsonian units regarding
      implementation of SD 416 Real Estate Asset Management. It is also
      responsible for recommending and implementing best practices for all
      Smithsonian-related real estate assignments (owned and leased), as well as
      maintenance of real property records and documentation.

In addition, the Division provides facilities-related budget information for inclusion
in the Smithsonian’s annual budget submission to OMB.

                                RESULTS OF AUDIT

We found that the Smithsonian has developed and implemented short- and long-
term plans to reduce leased office space, as well as long-term plans to synchronize
the expiration dates of Washington, D.C. area office leases in anticipation of
purchasing office space in 2021. Management has employed some effective
strategies for identifying opportunities to reduce its leased space costs. By
monitoring Smithsonian’s use of leased office spaces, the Division successfully
consolidated some spaces to reduce costs where possible. However, management
had not finalized a cost-benefit analysis to support its plans to purchase a building.

The Smithsonian Needs to Develop an Office Space Cost-Benefit Analysis

The Smithsonian has consolidated and synchronized the expiration of current leases
around the Washington, D.C. area in an effort to strategically position the
Smithsonian to explore an owned building alternative to house administrative
offices. However, according to a real estate study, prepared jointly by the Division
and a commercial real estate consultant, the Smithsonian should begin its planning
process to purchase a building. This process needs to begin now since there will be
fewer options available the closer it gets to the end of the lease terms, which may
put the Smithsonian in a disadvantaged negotiating position resulting in a higher

                                           2                                July 3, 2014
SMITHSONIAN INSTITUTION                                                      OFFICE OF THE INSPECTOR GENERAL



purchase price. Moreover, management said the existence of historically low 

interest rates presents an opportunity for the Smithsonian, and adds to the sense

of urgency to move forward with this initiative expeditiously. 

This study suggests that, should the Smithsonian pursue a Built-to-Suit alternative, 

it will take approximately 69 months (5 years and 9 months) to complete planning 

through full occupancy. See diagram below for details.



Time Line for a Built-to-Suit Building

  Strategic                      Approvals and                      Base Building                      Move in and
  Planning                       Documentation                      Construction                      Commissioning
  (6 Months)                      (6 Months)                        (30 Months)                         (3 Months)




               RFP/Transaction                   Design and                            Interior
                 Negotiation                     Permitting                          Constructioin
                 (6 Months)                      (18 Months)                          (9 Months,
                                                                                    concurrent with
                                                                                     Base Building
                                                                                     Construction)




This same study advises that the least costly scenario requires prompt action, while
the most expensive scenario is to do nothing. According to the Smithsonian’s Office
of Planning Management and Budget (OPMB), preparing a cost-benefit analysis will
help the Smithsonian persuade decision makers, including OMB and Congress, to
determine whether the purchase of a new building is in the best interest of the
Smithsonian. In fact, Smithsonian management has completed a draft cost-benefit
analysis and continues to refine it as more specific market information becomes
available; it expects to finalize this analysis by the end of fiscal year 2016.

Likewise, Smithsonian policy and OMB guidance discuss the importance of, and
need for, such analyses in making real property acquisitions. SD 416 states that:

   •	 Facility investments are made based upon objective performance criteria,
      fulfillment of the intended mission and life-cycle cost-benefits analysis.

   •	 Lease versus ownership decisions are based upon the mission-critical need
      for the requirement, financial cost to the Institution in the short- and long-
      terms, maintenance costs, and the degree of control of the physical plant
      desired by the Smithsonian.

Further, OMB Circular A-94 (1992), Guidelines and Discount Rates for Benefit-Cost
Analysis of Federal Programs, outlines how to analyze lease versus purchase
decisions.



                                                               3	                                                July 3, 2014
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL



In addition to the above guidance, the Government Accountability Office (GAO) has
issued reports on government real estate leasing practices for many years.2 These
reports state that the government uses too many costly operating leases when in
the long-term it would be less expensive to purchase an office building. The
auditee, General Services Administration (GSA), agreed with the findings, but noted
that the OMB budget scoring procedures constrains federal agencies to select
operating leases in lieu of purchasing a building. These constraints, which compares
a one-year operating lease amount to the entire purchase amount of a new
building, ultimately favors the lower one-year lease cost.

Moreover, we found Congressional testimony3, where the Congressional Budget
Office stated that both GAO and GSA have reached the same conclusions that
operating leases make sense for a short or uncertain period; however, purchasing a
building to meet long-term needs would result in significant savings.

If the Smithsonian continues to lease office space, it will likely pay higher-than-
necessary costs compared with owning a building outright. According to the real
estate study mentioned above, if the Smithsonian purchased a building of
approximately 550,000 square feet, it could save about $107 million over a 15-year
period. The study explained that if the Smithsonian continued to lease during that
period, it would cost a total of $386 million; however, if the Smithsonian purchased
a building the estimated cost would be $279 million. According to the study, if the
Smithsonian owned the building, it would continue to save funds over the useful life
of the building, with a total savings of $445 million over a 40-year period.

Ultimately, Congress makes federal budget decisions, and federal budget realities
may not support a decision to purchase an office building. Nevertheless, by
completing a cost-benefit analysis, the Smithsonian will be better prepared to argue
the benefits of their proposal—to own or lease—to stakeholders.




2
  In a 1989 report, the GAO stated that, for 43 operating leases reviewed, the GSA could
have saved $12 billion through ownership of the assets over 30 years. A 1995 GAO report
found that, for 55 of 73 GSA operating leases examined, the total lease cost was $700
million more than it would have cost GSA to construct new buildings. A more recent GAO
report issued in 2008 found that, for 4 of 7 leases analyzed, operating leases were more
costly by $83 million over 30 years.

3
 Blum, James L. Statement to the House, Subcommittee on Legislation and National
Security Committee on Government Operations. Statement of James L. Blum, Deputy
Director, Congressional Budget Office on the Lease-Purchase Scorekeeping Rule, hearing,
September 20, 1994. Available at
https://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/49xx/doc4909/doc77.pdf

                                            4                                 July 3, 2014
SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL



Recommendation

To present a more informed position to stakeholders regarding the purchase or
lease of office space, we recommend that the Associate Director, Real Estate
Division:

   1. Continue to refine and complete a cost-benefit analysis for use in the
      decision making process and include this analysis in the Smithsonian’s
      federal budget proposal.




                                        5                               July 3, 2014
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL



                                                                          Appendix A

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to evaluate the Smithsonian’s short- and long-
term plans for managing its leased office portfolio, and also to assess
management’s strategies for identifying opportunities to reduce costs relating to
leased office space.

To accomplish our objectives we reviewed federal policies regarding leasing of real
property and guidance from the OMB contained in Circular A-11, Preparation,
Submission, and Execution of the Budget, and Circular A-94, Guidelines and
Discount Rates for Benefit-Cost Analysis of Federal Programs. These circulars
discuss OMB budget scoring of leases and purchases of capital items. We reviewed
internal Smithsonian directives and manuals. We also reviewed audit reports from
various offices of inspectors general and the GAO. In addition, we reviewed
government and private industry best practices for the leasing of real property.

To obtain an understanding of the Smithsonian’s management of its lease portfolio,
we met with personnel from the Real Estate Division and other OFEO groups.

We reviewed the minutes of the Board of Regents’ Facilities Committee meetings
during the period January 4, 2008 through February 28, 2013, to determine
whether the Committee discussed the Division’s real estate plans during its
meetings.

To gather information about telework and other opportunities to reduce leased
office space at the Smithsonian, we met with staff from the Smithsonian’s OHR. We
also met with the Director of OPMB and members of his staff to discuss the
Smithsonian’s budget process.

In order to assess the accuracy of the Division’s real estate database for office
space we compared data in the database to the original leases for all the leased
office space. This included 15 current office leases in 5 locations, totaling 642,705
square feet with an annual lease cost of approximately $29 million.




                                         A-1
                                                                           July 3, 2014
SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



                                                                       Appendix A

OBJECTIVES, SCOPE, AND METHODOLOGY (Continued)

We conducted this performance audit in Washington, D.C. from August 2013
through June 2014, in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                        A-2
                                                                         July 3, 2014
SMITHSONIAN INSTITUTION         OFFICE OF THE INSPECTOR GENERAL



                                                  Appendix B

MANAGEMENT’S REPONSE




                          B-1
                                                   July 3, 2014
SMITHSONIAN INSTITUTION                    OFFICE OF THE INSPECTOR GENERAL



                                                             Appendix C

MAJOR CONTRIBUTORS TO THIS REPORT

Brian Lowe, Supervisory Auditor
Steven Townsend, Auditor-in-Charge
Kayla Norwood, Auditor




                                     C-1
                                                              July 3, 2014
